<html>
<title> - OVERSIGHT OF THE UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






                    OVERSIGHT OF THE UNITED STATES 
                  CITIZENSHIP AND IMMIGRATION SERVICES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2015

                               __________

                           Serial No. 114-50

                               __________

         Printed for the use of the Committee on the Judiciary


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://judiciary.house.gov
                                       ______
      
                   U.S. GOVERNMENT PUBLISHING OFFICE 
      
   97-956 PDF                 WASHINGTON : 2016 
 -----------------------------------------------------------------------
 For sale by the Superintendent of Documents, U.S. Government Publishing 
    Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
           DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                    Washington, DC 20402-0001
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                  RAUL LABRADOR, Idaho, Vice-Chairman

LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE KING, Iowa                     LUIS V. GUTIERREZ, Illinois
KEN BUCK, Colorado                   SHEILA JACKSON LEE, Texas
JOHN RATCLIFFE, Texas                PEDRO R. PIERLUISI, Puerto Rico
DAVE TROTT, Michigan

                     George Fishman, Chief Counsel

                     Gary Merson, Minority Counsel
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                     
                            C O N T E N T S

                              ----------                              

                            DECEMBER 9, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     2

                                WITNESS

The Honorable Leon Rodriguez, Director, United States Citizenship 
  and Immigration Services
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    32
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration and Border Security...........50
  
  
                  OFFICIAL HEARING RECORD
  
  
  Unprinted Material Submitted for the Hearing Record

Submission for the Record from the Honorable Bob Goodlatte, a 
    Representative in Congress from the State of Virginia, and 
    Chairman, Committee on the Judiciary. This submission is available 
    at the Subcommittee and can also be accessed at:

    http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=104264.

 
  OVERSIGHT OF THE UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 1:15 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trey 
Gowdy (Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Labrador, Smith, 
King, Buck, Ratcliffe, Lofgren, Conyers, Gutierrez, and Jackson 
Lee.
    Staff Present: (Majority) Andrea Loving, Counsel, 
Subcommittee on Immigration and Border Security; Tracy Short, 
Counsel, Subcommittee on Immigration and Border Security; 
Kelsey Williams, Clerk; (Minority) Gary Merson, Chief Counsel, 
Subcommittee on Immigration and Border Security; Maunica 
Sthanki, Counsel; and Micah Bump, Counsel.
    Mr. Gowdy. The Judiciary Committee will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Committee at any time.
    We welcome everyone to today's hearing on oversight of the 
United States Citizenship and Immigration Services.
    I will begin by recognizing myself for an opening 
statement.
    I first want to welcome our witness, Mr. Rodriguez.
    U.S. Citizenship and Immigration Services, USCIS for short, 
is responsible for processing over 6 million immigration 
benefit applications per year as well as implementing programs 
important to immigration enforcement such as E-Verify and the 
Systematic Alien Verification for Entitlements Program, also 
known as SAVE.
    Even without concerns being raised about terrorists seeking 
to exploit our refugee program or other aspects of our 
immigration system to enter the United States, processing such 
large numbers of immigration benefits applications would be a 
daunting task.
    But those concerns are being raised, and they are on the 
forefront of my fellow citizens' minds. And, as a result, I 
will look forward to hearing what changes, if any, Director 
Rodriguez has or will soon implement at USCIS to help ensure 
terrorists are not approved for visas or other immigration 
benefits.
    Many of the people I work for are particularly concerned 
about the prospect of a terrorist being resettled in our 
communities through the U.S. Refugee Admissions Program. And 
while I know we discussed this very issue weeks ago in the 
Subcommittee, those concerns are not going away. We are still 
looking for assurances that refugee program vetting is secure 
and effective.
    Our concerns were only exacerbated by the remarks of our 
colleague, Homeland Security Chairman Mike McCaul, indicating 
that efforts to enter our country via fraud in the refugee 
program are currently--emphasize ``currently''--occurring.
    Aside from security vetting concerns, fraud is always a 
problem in immigration benefits processing. I know the current 
and former Directors of USCIS have come before this Committee 
and said how fraud detection is a number-one priority, but that 
it is difficult to reconcile when we consistently hear from 
sources within USCIS that leadership will not pursue antifraud 
technology; that rubber-stamping of benefits applications is 
encouraged and even, in some instances, forced; and that USCIS' 
own antifraud unit, the Fraud Detection and National Security 
Directorate, is routinely sidelined and underutilized.
    My constituents are proud that the United States has the 
most generous immigration policy in the world, and they are 
proud that the United States is a beacon of hope for foreign 
nationals seeking a better life. But they have a right to know 
that the immigration programs are being run in a manner that 
does not put them in danger, and right now they don't feel that 
way.
    That is not to say that there is not some good news coming 
out of USCIS. The bright spot seems to be the E-Verify program, 
the use of which by employers is growing and which has had an 
extremely high successful verification rate. So I want to thank 
Director Rodriguez for his continued support of the E-Verify 
program, and I look forward to his testimony today.
    With that, I would recognize the gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    And, Director Rodriguez, it is good to see you here again. 
Welcome to the Immigration Subcommittee.
    I am sure we will hear from you to the extent you are able 
to discuss security measures taken by the agency, especially in 
light of the news coming out of San Bernardino in my State, so 
I am going to focus on other elements that are part of your 
important mission.
    As we know, a year ago, Secretary Johnson issued a series 
of directives, two of which have been held up in a dispute with 
Republican Governors. I won't address that because the Supreme 
Court is going to do so. I would like to talk about some of the 
issues that were not the subject of the litigation, 
specifically the parole program for immigrant entrepreneurs.
    You know, one of the things that keep our country ahead of 
the game economically is the tech sector. And we have failed in 
our necessary effort to reform the immigration laws, which is 
really the result that is necessary. But the President was 
trying to think and Secretary Johnson was trying to think about 
things that could be done consistent with the current law that 
would make the economy work better, and one of the things was 
that parole program for immigrant entrepreneurs.
    Now, a lot of companies that are household names are right 
in my neighborhood. Intel, Google, Yahoo, eBay, et cetera, et 
cetera, et cetera, were founded by innovative immigrants. They 
now employ tens of thousands of people. And, according to new 
research, immigrants have created half of America's top 
venture-backed companies, and those companies, in turn, have 
created an average of 150 jobs each. And, of course, when you 
look at some of them, like Google, it is tens of thousands.
    So I am concerned that we haven't launched the entrepreneur 
program. I am eager to know where that stands, and maybe you 
will be able to address it.
    I just want to touch on an action that I found gravely 
disappointing, and I realize it was not primarily the USCIS, 
but that was the October visa bulletin that was mistaken. Many 
people, immigrants, relied on the bulletin, as is reasonable to 
do, to their detriment.
    For example, I met personally with an individual who is a 
post-doc doing cutting-edge neuroscience research funded by the 
Federal Government, funded by the NIH. He was going to file for 
his permanent residence based on the priority date. He did not 
review his H-1B visa. Then the visa bulletin was amended, and 
he is nowhere. He is nowhere. It is crazy that someone who has 
been here for years, who we are funding, who may get a Nobel 
prize, is just nowhere.
    And so I don't know how many people like him were 
disadvantaged, but I am wondering what efforts the agency has 
thought about just to ameliorate the harm done by that mistake 
in the bulletin.
    I am concerned that the program really set up to avoid the 
rush of refugees across our border who have come through Mexico 
fleeing violence, the alternative to process refugee 
applications in-country has not really worked. I don't think 
any child has been admitted yet. And I am concerned. Whatever 
light you can put on that situation, I would appreciate 
knowing.
    And I also would like an update on the technology efforts 
that the agency has been making. When the President was 
elected, we were almost entirely paper-based, and I think we 
have made some progress but not as much as I expected or hoped 
that we would. And I am hoping you will be able to give us--you 
know, if you have a FedEx package, you can track where it is, 
you know, if you are expecting delivery. We haven't been able 
to deliver that kind of customer service, and I think the 
American public would be better served if we could.
    So anything you can give us on those topics. And I know 
that you will talk about the security issues that the Chairman 
has also touched on.
    With that, Mr. Chairman, I see my time is about to expire.
    Mr. Gowdy. The gentlelady yields back.
    We are pleased to welcome our distinguished witness today.
    Director, if you would please rise and allow me to 
administer the oath. Thank you, sir.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Mr. Rodriguez. I do.
    Mr. Gowdy. May the record reflect the witness answered in 
the affirmative.
    Director, you have a long and distinguished career as a 
prosecutor, which I am going to give short shrift to in my 
introduction, so forgive me for that.
    But today's witness is the Director of the United States 
Citizenship and Immigration Services. He was sworn in as 
Director on July 9, 2014.
    He previously served as the Director of the Office of Civil 
Rights at the Department of Health and Human Services, a 
position he held from 2011 to 2014. From 2010 to 2011, he was 
chief of staff and Deputy Assistant Attorney General for Civil 
Rights at the Department of Justice.
    He received a B.A. from Brown University and a J.D. from 
Boston College Law School.
    As I mentioned to you beforehand, I think you have 
prosecuted at about every level that one can possibly 
prosecute, so thank you for your service to our country.
    And, with that, I would recognize you for your opening 
statement.

  TESTIMONY OF THE HONORABLE LEON RODRIGUEZ, DIRECTOR, UNITED 
          STATES CITIZENSHIP AND IMMIGRATION SERVICES

    Mr. Rodriguez. Thank you, Chairman. It is great to be here 
in front of the Committee today and to address the myriad of 
issues that both you, Chair, and Ranking Member Lofgren have 
raised during your own opening remarks.
    I had planned in my opening remarks to discuss my own broad 
priorities for USCIS, specifically to fully and effectively 
implement the executive actions, to effectively and safely 
process our refugees, to continue to advance our transformation 
process, and to continue to maintain a high level of customer 
service and stakeholder engagement.
    However, the recent mass murder in San Bernardino, 
California, near Ms. Lofgren's district, and a number of recent 
events, I think, as the Chairman pointed out, make it 
particularly important that we talk about security issues here 
this afternoon.
    I would note at the outset two things. One, I will not, 
unfortunately, have the luxury to be able to talk about 
specific cases. Some of these are cases under law enforcement 
investigation. In any event, there are privacy policies and 
laws that apply to specific files.
    Two, I would observe that, after nearly a quarter-century 
in and around law enforcement, one of the things that I have 
learned very much through personal experience is that violent 
criminals can come from pretty much any faith, any nationality. 
They can be U.S.-born; they can be immigrants. They can come 
from just about anywhere.
    My particular role, our particular role, in USCIS is to 
ensure that those who seek the privilege of admission to the 
United States, be they as travelers or as immigrants, that 
they, in fact, be individuals who deserve that privilege, that 
they not be individuals who either intend our Nation harm or 
who intend to become criminals when they come here to the 
United States.
    And we have been working diligently in recent years to 
enhance our ability to weed out both individuals who are 
criminals and who are threats to our national security. And to 
give some examples of the kinds of things that we do, we have 
enhanced the resources against which we vet all immigrants, not 
just refugees but also all immigrants. We have developed 
improved techniques for fraud detection, for interviewing, in 
order to advance that.
    Now, in light of the events in San Bernardino, the 
President and the Secretary have both directed USCIS to review 
both the K-1 visa program as a whole, which we are in the 
process of doing right now, but also to do a retrospective look 
at cases approved in recent years under the K-1 visa program. 
And we are fully along in conducting that effort.
    I remain mindful, however, that our charge in USCIS is 
really to look at the security of our entire process. So, while 
we are focusing on K-1 today, I want to make clear to this 
Committee and, importantly, also to the American public that 
our focus will be across all of our lines of business to ensure 
that bad guys don't gain admission to the United States.
    I am blessed at USCIS with a tremendous staff who is 
dedicated both to following the law, to serving the American 
people, and, importantly, to preventing fraud and threats to 
our national security.
    As a couple of examples of the kinds of things that we have 
done, in light of concerns about our asylum program, we have 
been increasing the presence of fraud detection and national 
security officers in our asylum offices. We have doubled the 
number of those individuals in recent years. Similarly, in the 
EB-5 program, we have doubled the number of fraud detection and 
national security officers there, as well.
    There are many other topics that I would like to address, 
and, hopefully, through questioning, I will have the 
opportunity to address a number of the issues that Ranking 
Member Lofgren raised.
    But I would like to conclude with this observation. I read 
something in the paper just a few days ago that really rang of 
truth to me. And that was the notion that the worst thing that 
we can do to the terrorists that wish us harm, the terrorists 
who are trying to recruit others to harm us, is to continue to 
be a beacon to people throughout the world.
    The fact that many of the very same people who those 
terrorists would like to recruit, in fact, are seeking 
admission to the United States is the most severe indictment of 
what they are trying to do. That inspires me as much as 
anything else to do the work that I do as USCIS Director.
    Thank you, Chairman, for having me here today.
    [The prepared statement of Mr. Rodriguez follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                               __________
    
    Mr. Gowdy. Thank you, Director.
    I will recognize myself for 5 minutes of questioning.
    Director, I am going to make a series of what I think are 
factually supported assertions. If any of the assertions are 
incorrect, I want you to correct them, because hypotheticals or 
realities are no good if there is an incorrect factual 
assertion.
    So it appears as if the female terrorist in California 
entered the United States in July of 2014 on a K visa. And 
there is an application process which includes some level of 
investigation on our end. And, as I understand the application 
process, it may well be that USCIS and the State Department 
have some level of engagement, at least at the application 
process.
    And then, as I understand it, there is or is supposed to be 
an in-person interview at an embassy or a consulate, which is 
another level of investigation. So you have the application, 
which may involve USCIS and the State Department. Then you have 
an in-person interview. And the way I count, that is at least 
two and maybe more levels of inquiry or investigation.
    And then we fast-forward. The FBI Director today, I 
believe, tells us that there is evidence that the female 
terrorist was radicalized 2 years ago. And there is a media 
account, and you are free to put whatever stock you would like 
in a media account, but it has been widely reported that the 
male terrorist was part of a plot in 2012 to do harm in this 
country.
    So it appears to me that the investigations done by our 
government would have occurred after both her radicalization 
and after his previous plot to commit an act of terror. And yet 
the visa was approved and she immigrated here. And 14 body bags 
later, we are trying to figure out what went wrong.
    So assume arguendo that the FBI is right, which is not an 
unreasonable assumption; the female terrorist was radicalized 
well before her application to come to the United States. How 
did we miss that twice?
    Mr. Rodriguez. So, again, I will take that question as a 
hypothetical, given my inability to speak to the specific 
factual scenario.
    I think, in addition to the interviews that you described, 
individuals are also vetted against law enforcement and 
intelligence databases at multiple stages in the K-1 visa 
process. So when we adjudicate the petition by the U.S.-based 
person, usually the fiance on our side of the ocean, there is a 
series of background checks done at that time. The State 
Department does another more fulsome series of checks. And then 
we see that individual then again at the time of adjustment 
once they are in the United States.
    The nature of the interview depends on what derogatory 
information we have about the individual. So, in the absence of 
a specific--we ask a series of questions that obviously are 
intended to vet that individual out, but in the absence of a 
specific basis, we probe, basically, the record that is before 
us.
    One of the things that we are looking at right now is--and, 
again, I think about this not just in terms of the fiance visa 
program, but I really think of it in terms of everything that 
we do--are there things that we need to be doing differently 
prospectively to probe even more deeply to ensure that we are 
not admitting individuals who will come here to do us harm.
    Mr. Gowdy. I wholeheartedly concur that we should be 
looking at all visas, no matter what letter occurs in front of 
them. It just so happens that this is a K visa, but the 
analysis could very well be the same regardless of what kind of 
visa it was.
    And I am not trying to put words in your mouth, but what I 
hear you saying is we don't know if anything would have been 
done differently, and it is a thorough investigation, and yet 
we still missed it, which tells me that I have to go back to 
South Carolina and tell people there is just going to be an 
error rate.
    Mr. Rodriguez. Well, you know, one of the issues that we 
are looking at are what are our authorities at different points 
in the process. So, for example, at the point when we 
adjudicate the petition, as it stands right now, as long as the 
bona fides of the petition are established by the U.S.-based 
petitioner, regardless of what derogatory information may exist 
against that individual, we don't--and, again, I am talking 
generally. I am not talking about any specific case. That is 
certainly an issue we are looking at as to whether we need to 
think differently about what we do in that stage of the 
process.
    We are also looking at what we do on the back end of the 
process, at the time when we actually give that person a green 
card or we give them a conditional green card, are there 
additional measures we need to be taking at that stage, as 
well.
    Mr. Gowdy. Director, do you know whether or not the female 
terrorist in California was interviewed in person at an embassy 
or a consular post?
    Mr. Rodriguez. Again, respectfully, Chairman, I am not at 
liberty in this setting to talk about any specifics.
    Now, I can tell you what our practice is. There have been 
exceptions to this. Generally, it is our protocol that we only 
interview people in the K-1 visa program in cases where there 
is some issue that needs to be explored as part of the case. 
That could be derogatory information about the individual. It 
could be factual questions, not necessarily derogatory, about 
the application.
    That is the existing practice as we speak. That is 
certainly going to be part of our review.
    Mr. Gowdy. Do you know how long the investigation lasted 
from the time she applied for a K visa until the time she was 
interviewed at whatever consular post or embassy?
    Mr. Rodriguez. Again, I am not at liberty to discuss a 
particular case.
    From the time they get in--if I am understanding the 
question, from the time they are interviewed at the consular 
post to the time that we adjust them? Is that the question, 
sir?
    Mr. Gowdy. I was more interested in from the time she 
applied until the time there was whatever first interview, 
whether or not there was research done into her school, if any, 
attended; social media, if any; employment history, if any.
    And I am out of time, so I am going to go to the 
gentlelady, and I will give her exactly the same amount of time 
I took.
    I will just tell you this. I appreciate--because I hear it 
a lot from Administration folks, that they cannot discuss an 
ongoing investigation. I would just note the obvious. They are 
dead. So I don't know that we are terribly worried about their 
privacy considerations.
    And I am not lodging this allegation at you specifically. I 
can just tell you, I have been around 5 years now, and it just 
strikes me that sometimes folks cite an ongoing investigation 
or prosecution when they just really would prefer not to answer 
the question.
    Because there is not going to be a prosecution of either 
one of these terrorists. You and I agree on that. So I am not 
sure what we are worried about jeopardizing by allowing 
Congress to look at her file.
    What investigative or prosecutorial strategy would be 
jeopardized by allowing Ms. Lofgren and I to look at her 
immigration file?
    Mr. Rodriguez. Again, I am really citing the general 
practices in rules. I mean, I think you and I are both aware of 
cases where, in fact, regardless of the fact that there may be 
two dead perpetrators, where there are still actually 
investigative reasons to maintain secrecy. I am not speaking 
necessarily to this specific case. That is the practice that I 
have lived by, be it in my role as USCIS Director or when I was 
a prosecutor previously, that I did not talk about cases that 
were ongoing, regardless of those characteristics.
    I understand why this body would want them. I understand 
why that information might be helpful to this body in 
discharging its responsibilities. I don't see myself as at 
liberty to share that information at this time.
    Mr. Gowdy. The Chair will now recognize the gentlelady from 
California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Just picking up where the Chairman has left off, I will 
disclose that my office did call over and ask for a copy of the 
K-1 application, and we were advised that it was the FBI who 
had said, really, this needs to remain confidential at this 
point because of their investigation. And I accept that. You 
know, I want the FBI to be able to do everything it is supposed 
to do. When they are done, however, I want to take a look at 
all of it.
    And so I think how long that investigation will take none 
of us can know. But I know that the Chairman, I am sure, would 
share my desire that, once it is over, let's take a look at all 
of it. We wouldn't want to jeopardize the ongoing 
investigation.
    In terms of what USCIS does, the interview for--and not 
talking about this case, but just how one obtains nonimmigrant 
visa, be it the K-1 or H-1B or whatever, the applicant applies 
abroad, and it isn't USCIS that does the interview. It's the 
State Department, isn't it?
    Mr. Rodriguez. Yes, that's correct. All we do at that stage 
is adjudicate the bona fides of the petition here, meaning the 
bona fides of the relationship. The actual interview, the 
actual screening, is conducted by the State Department at a 
consular post overseas.
    Ms. Lofgren. And you're not a law enforcement agency per 
se. What you're doing, in terms of the criminal element and 
checking it out, is checking with the FBI and the database and 
the like to see what comes up. Isn't that right?
    Mr. Rodriguez. That is correct. I will amend that to say we 
do see ourselves as having both a national security and law 
enforcement responsibility----
    Ms. Lofgren. Yes.
    Mr. Rodriguez [continuing]. To ensure that people who trip 
either of those wires are----
    Ms. Lofgren. Of course. But you don't have an army of 
agents as a law enforcement agency. You rely on the FBI to do 
that.
    Mr. Rodriguez. Nobody on my staff carries guns as part of 
their job.
    Ms. Lofgren. All right.
    So, in terms of the--if a person comes over on a K-1 visa, 
say, they have 90 days in which to get married to the American 
who has petitioned for them. What happens then?
    Mr. Rodriguez. At that point, I believe they have 120 
days--once the individual is here, they have 120 days within 
which to seek adjustment, which, in the ordinary course, most 
people actually do.
    At that point, they become, essentially, conditional 
permanent residents. And I apologize, I don't know the exact 
duration.
    Ms. Lofgren. So it's conditional, and the marriage has to 
prove valid.
    Mr. Rodriguez. Yes.
    Ms. Lofgren. And, after 2 years, then the couple goes in 
and they apply to remove the condition because they're still 
married, it's a valid marriage. Is that correct?
    Mr. Rodriguez. Correct.
    Ms. Lofgren. So, at that point, you are still interviewing 
to make sure that there is nothing that you can discover that 
is fraudulent or wrong, aren't you?
    Mr. Rodriguez. We are both interviewing and also running 
additional checks, you know, of the kind that are frequently 
discussed before this Committee. We're doing additional checks 
on those individuals.
    Ms. Lofgren. And so if somebody came on any kind of visa 
like that, there's, you know, many, many grounds for 
inadmission to the United States, whether or not you are 
married to an American or a fiance. I mean, if you have 
committed drug smuggling or if you are a human trafficker, you 
are not admissible to the United States, no matter what. If you 
are intending to commit a crime in the U.S. or you have 
terrorist ties, you are not admissible to the United States.
    Mr. Rodriguez. That is correct. If there are indications 
that you are a criminal or that you are intending to immigrate 
or travel to the United States to commit a crime, then that 
would----
    Ms. Lofgren. So the real question is not whether or not the 
law needs to be changed. That is the law. It's a matter of how 
that information is discovered and by whom.
    Mr. Rodriguez. Correct. And one of the issues that we're 
looking at is our authority at different points in the process, 
in addition to our practices at different points in the 
process, to ensure that we are trapping those issues at every 
opportunity that we can.
    Ms. Lofgren. I'm going to switch to another subject. There 
was a report both in Disney and Southern California Edison who 
were using the H-1B program to replace U.S. workers. It was 
pretty outrageous reports. And Secretary Johnson described it, 
and I quote, as a very serious failing of the H-1B program and 
that Congress could help put an end to this through increased 
enforcement mechanisms for situations where an employer does, 
in fact, replace American workers with H-1B visa holders.
    What type of enforcement mechanisms do you think are needed 
to ensure that the H-1B program is not used to displace 
American workers?
    Mr. Rodriguez. So I think this is an area where we would be 
very happy to work with this Committee to provide technical 
assistance.
    I think one of the issues to which you are speaking, one 
that I was very interested to learn as I was digging into the 
H-1B process, is that you can accomplish a certain result 
through contractors that you couldn't necessarily accomplish 
directly. And that is certainly a discussion that we would be 
happy to have with this Committee as a technical assistance 
matter.
    Ms. Lofgren. Well, we may take you--I've got some ideas on 
that, as well. I mean, some of it is regulatory, but some of it 
is economic. And we might change the utility of that method 
through just the economic parameters of the program.
    You know, I want to touch just--and I know that we're over, 
but the Chairman said I got the same amount of time, so I want 
to talk about the Special Immigrant Juvenile program. As we 
know, this category has been in the law since 1990, and it 
provides protection to children who essentially have been 
abandoned by their parents. The juvenile court in the given 
State is the one that makes that determination on whether the 
child before the State court has been, in fact, abandoned.
    Now, although your agency is charged with combating fraud, 
I am hearing reports that your adjudicators are seeking 
evidence essentially to collaterally attack the decisions that 
have been made by State courts about dependency. And I am 
wondering, absent information about specific fraud, would that 
be something your agency should do? And what would be the legal 
basis for a collateral attack on a State court determination of 
juvenile dependency?
    Mr. Rodriguez. Yeah, the concerns about our examination of 
State court findings are issues that have been raised to us 
frequently by stakeholders. As a former county attorney, I 
actually come with the background of having represented a child 
welfare agency myself, so I understand this process pretty 
well.
    Those inquiries by our staff members are not meant as 
collateral attacks, but they occur in circumstances where the 
order issued by the family court or the juvenile court or 
whatever the court of jurisdiction may be does not satisfy, on 
its face, the requirements of the law. In essence, it doesn't 
say everything that it needs to say in order to qualify under 
the Special Immigrant Juvenile. It is at that point that our 
officers are asked to look further to ensure that those 
elements are established.
    Ms. Lofgren. All right. That is very helpful information.
    I see my time has expired, Mr. Chairman. I yield back.
    Mr. Gowdy. The gentlelady yields back.
    Director Rodriguez, at the end of this, I am going to make 
sure the Congresswoman has exactly the same amount of time I 
have. It's just if I don't ask that question now, I probably 
will forget to ask it before I go to Chairman Smith, which is 
that something she said prompted me to want to ask this.
    It strikes me that there are at least two things we could 
say to our fellow citizens, one of which is, ``We missed it,'' 
as it relates to the female terrorist, and that's just a risk 
that we're going to have to accept as an open society. The 
other alternative is to say, ``This is what we have learned 
from that fact pattern, and this is what we are doing 
differently to prevent the next one.''
    Which is it? And what assurances could you give that we are 
going to do it differently so there is not a repeat of this 
fact pattern?
    Mr. Rodriguez. Again, I think the point that I made earlier 
is we're looking at everything. In other words, we are looking 
at cases that may have happened today, and we are looking at 
all the issues related to where we can do our job better and 
make sure that, to the extent of our ability--we're never going 
to eliminate all risk--but, to the extent of our ability and 
the resources that we have, that we reduce risk to the greatest 
extent possible.
    That is a commitment that I make to the American people. 
That is the purpose of having me, as a former prosecutor, as 
the head of the agency, is to really press us to not miss those 
opportunities to do better and to keep the American people 
safer.
    Mr. Gowdy. The Chair recognizes the gentleman from the 
great State of Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Director Rodriguez, it seems to me that the President's 
words and actions are having an unfortunate impact on both 
immigration levels and on immigration policy. For example, the 
President's proposed amnesty led to a surge last year in 
illegal immigrants coming from Central America, and we're 
seeing a similar surge today.
    The President's proposed changes in our Cuban policies have 
led to a recent surge in Cubans particularly coming across our 
southern border. Now, they are not illegal immigrants, but the 
point is it has led to a surge as a result of his policies.
    Because of this Administration's lack of enforcing current 
laws, the number of sanctuary cities has doubled under this 
Administration. All that is worrisome to me, as is the 
Administration's policy toward Syrian refugees, which is what I 
want to ask you about.
    In regard to those applying for asylum from Syria, do you 
feel that we are able to get as much information about their 
backgrounds as we are applicants for asylum from other 
countries?
    Mr. Rodriguez. I think we do have. It's very hard to 
compare because I think it would be easier to take two cases 
and compare two cases. I think comparing one broad body of 
individuals to another broad body or different nationalities, I 
think, is a different kind of scenario----
    Mr. Smith. Right. But you say generally you think we're 
getting as much information and there's as much data?
    Mr. Rodriguez. I think we are getting a lot of information 
that is useful, that enables us----
    Mr. Smith. Okay.
    Mr. Rodriguez [continuing]. In particular cases to deny 
individuals applications for refugee status, to put 
questionable cases on hold. I don't feel able to engage in the 
kind of comparison that you're inviting me to engage in.
    Mr. Smith. Okay. Well, initially, you said you thought we 
were getting the same. You're aware, of course, of the FBI 
Director saying that we are not getting the same amount of data 
on Syrian refugees as we are other individuals.
    Mr. Rodriguez. If I understood----
    Mr. Smith. Are you aware that the Director of FBI said 
that?
    Mr. Rodriguez. Oh, yeah, no, I'm aware of that.
    Mr. Smith. Okay.
    Mr. Rodriguez. And if I may, Congressman, I think the main 
comparison that was being made--and it's a hard comparison to 
argue with--is that we're not in Syria. We don't have boots on 
the ground in Syria. We did have boots on the ground in Iraq.
    That doesn't mean that we're blind.
    Mr. Smith. No, no. And I'm not implying that.
    The Director of FBI said, ``My concern about bringing 
Syrian refugees into the United States is that there are 
certain gaps I don't want to talk about publicly in the data 
available to us.''
    As a result of that, do you think it is more risky to admit 
individuals from Syria than other countries because we don't 
have as much information? Or do you think there's no more risk 
involved in admitting individuals from Syria?
    Mr. Rodriguez. There is risk in our business.
    Mr. Smith. No, no.
    Mr. Rodriguez. And our job is to----
    Mr. Smith. That wasn't my question. I wasn't asking you 
about general risk. I was asking you, specifically, is it 
riskier to admit individuals applying for asylum from Syria 
than from other countries.
    Mr. Rodriguez. I think individuals who come from places 
where terrorists are active, where terrorists are seeking to 
recruit, command from us a higher level of scrutiny. That is 
why Syrian refugees, in particular, receive the toughest, 
most----
    Mr. Smith. Right. I understand that, but that doesn't count 
for anything if there's no information available. If you don't 
have good data, you don't have a good result, no matter how 
good the process is. I'm not questioning the process.
    Mr. Rodriguez. But that's the point I'm trying to make 
through concrete example. We have denied people admission 
because of information that we learned from law enforcement----
    Mr. Smith. Is your denial rate for those applying for 
refugee status from Syria a higher denial rate than other 
countries? And, if so, what is the rate?
    Mr. Rodriguez. Well, I think the denial rate is a deceptive 
statistic, and I will tell you why. It is very easy to 
demonstrate a claim for refugee status in Syria. Syria is a 
mess. And there is all kinds of sectarian violence, violence 
based on political opinion.
    Mr. Smith. Yeah.
    Mr. Rodriguez. So it would be very hard not to establish a 
claim for refugee status. The question is, is the individual 
inadmissible because they are a terrorist or a criminal?
    Mr. Smith. I understand that. What was the answer to my 
question, what is the denial rate for those applying from Syria 
versus the denial rate for those applying from other countries?
    Mr. Rodriguez. At this point, I believe it is approximately 
20 percent.
    Mr. Smith. Twenty percent denial?
    Mr. Rodriguez. Yes. Of the group that we have admitted so 
far. In other words, there are a number of individuals in the 
pipeline, so that rate could shift.
    Mr. Smith. So you admit 80 percent of the refugees from 
Syria.
    Mr. Rodriguez. Given the very small pool that we've seen so 
far.
    Mr. Smith. Okay.
    Mr. Rodriguez. In other words, I don't think that 
necessarily speaks to what our rates are going to be.
    Mr. Smith. Okay. Seems to me, you know, for a group that 
seems to be riskier and a group on which you have less 
information than those applying for refugee status from other 
countries, it seems to me that that is a dangerously high 
admission rate.
    Mr. Rodriguez. Yeah, actually--and let me correct that. 
That is a rate of non-admission.
    Mr. Smith. Right.
    Mr. Rodriguez. In other words, those could be individuals 
who have either been outright denied or who are on hold.
    Mr. Smith. I understand.
    Mr. Rodriguez. They have not been admitted as yet. Again, 
that's why I say that that could shift over time.
    Mr. Smith. Okay.
    Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the gentleman from Michigan, 
Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman.
    Welcome, Mr. Director.
    Tell me, what is the Immigration Services doing to ensure 
that the Deferred Action for Childhood Arrivals renewal 
applications are adjudicated in a timely fashion so that young 
people don't suffer some of the grave consequences we've heard 
about?
    Mr. Rodriguez. Thank you, Congressman Conyers. That is an 
important question.
    We did have some circumstances early on, because of delayed 
applications, because of issues related to either errors in 
applications, background checks, where some individuals were 
not being approved prior to the expiration of their deferred 
action.
    We have taken a number of steps to ensure, especially for 
those individuals who actually apply on time, that we are able 
to finish adjudicating those applications before the 
expiration.
    So what we have done is, first of all, we have extended the 
time at which we give them initial notification of the fact 
that they're coming up for renewal. We now do it 180 days 
before expiration rather than 150 days.
    We have accelerated the time in the cycle when we begin 
adjudicating issues that we find with applications. Be it if 
there are, for example, criminal history hits that need to be 
analyzed or if there are errors in the application, we're doing 
that earlier in the adjudication cycle than we used to.
    And we have engaged in extensive engagement with community-
based groups to make sure that individuals understand what they 
need to do in order to be ready for us to be able to adjudicate 
the case in a timely manner.
    And those are examples of two among a number of steps that 
we've taken. In fact, we've seen considerable improvement, and 
I believe all about a fraction of 1 percent of cases are now 
adjudicated within 120 days of application and, I believe, 
roughly 90 percent prior to expiration of those cases.
    Mr. Conyers. I'm happy to hear that.
    Let me turn to the subject of Haitian Family Reunification 
Parole. This program has the potential to help many more 
Haitian families, and I want you to tell me what you see as 
challenges involved in expanding the Haitian Family 
Reunification Parole Program to include all of the Department 
of Homeland Security-approved Haitian beneficiaries and not 
just a small subset.
    Mr. Rodriguez. Again, I think, as you know, generally, 
parole is a tool that is a kind of relief that we use on a 
case-by-case basis either where there is a humanitarian reason 
or where there is a significant public interest.
    What we have done in the Haitian case is created parameters 
in those cases for individuals who have a qualifying family 
relationship, who are within a certain horizon prior to the 
ability to adjust. That, for us, in designing that policy, 
seemed to be the right parameters to put on that case. In fact, 
that has offered relief to a number of individuals.
    But we can certainly continue to engage on ways that we can 
possibly improve that program. We certainly know that Haiti, in 
particular, is a country that has had great difficulties in 
recent years. The reason we have the policy altogether is 
because we believe that it is in the interests of the United 
States to help Haiti and the Haitian people get back on their 
feet. So we can certainly continue to engage on that topic.
    Mr. Conyers. And let me close by asking you about, with 
reference to Syrian refugees, since USCIS holds responsibility 
for conducting in-person interviews with refugee applications 
to determine eligibility, how can it do so in a manner that 
most appropriately assesses for potential threats?
    Mr. Rodriguez. Thank you for that important question.
    Our officers are--first of all, many of them are very 
experienced. The ones who are sent to work in those particular 
groups of cases are among the most experienced. They are 
briefed extensively, both from classified and nonclassified 
sources, on country conditions within Syria. They have benefits 
of prior interviews conducted of those individuals. They have 
the benefits of the background checks conducted of those 
individuals.
    Those all provide very strong tools for those individuals 
to conduct thorough and intensive interviews to identify 
possible bases of inadmissibility.
    Mr. Conyers. Thank you, Mr. Chairman. And may I ask 
unanimous consent to have my statement on this subject entered 
into the record?
    Mr. Gowdy. Yes, sir. Without objection.
    Mr. Conyers. Thank you.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary
    The United States Citizenship and Immigration Services is the 
federal agency charged with overseeing lawful immigration into the 
United States. The agency's responsibilities include: adjudicating 
immigration applications, granting citizenship, issuing green cards, 
and making decisions on asylum and other matters for eligible 
individuals, all of which are crucial to our Nation's security and 
economy.
    But, I want to preface my remarks by noting that we are holding 
this hearing just two days after a Republican frontrunner in the 
ongoing race for the Presidency of the United States proposed banning 
Muslims from immigrating to America.
    This is a vile, unconstitutional, and fascist idea that must be 
confronted and condemned. I will not stand by while an entire religion 
is maligned.
    As many of you know, my district has one of the largest Arab-Muslim 
communities in the United States. The community I represent is hard-
working, law-abiding, and shares the same American dream as immigrants 
who came before them.
    The last time Director Rodriguez appeared before our Committee, the 
Majority alleged that USCIS improperly approves fraudulent petitions 
and does not properly screen applications. Unfortunately, the Majority 
may make similar allegations of fraud and abuse during today's hearing.
    I agree that we must take all appropriate steps to root out fraud. 
This is a matter of public safety and the integrity of our immigration 
system. But I fear that my Majority colleagues often substitute 
political posturing for legitimate discussion. We should not insert our 
disagreements on immigration policy into a discussion on agency 
practice and operations.
    Today, I look forward to hearing, first, about how USCIS plans to 
address asylum backlogs and efforts to ensure there are no more delays 
in Deferred Action for Childhood Arrivals renewal applications.
    Processing delays threaten people's livelihoods and can disrupt 
their education, healthcare benefits, driving privileges, and even 
housing and food stability.
    Second, USCIS has been on the front line of implementing the 
President's executive actions. While two of these programs, the 
Deferred Action for Parents of Americans and the expanded Deferred 
Action for Childhood Arrivals, have been enjoined, the other executive 
actions have been or are in the process of being implemented.
    Accordingly, I look forward to hearing the Director's updates on 
USCIS's progress on these executive actions.
    Third, USCIS has led the Administration's efforts to thoroughly 
screen Syrian and other refugees. Refugees are subject to the highest 
level of vetting--more than any other traveler or immigrant to the 
United States.
    USCIS relies on methodical and exhaustive background checks, which 
typically range 18 from 24 months on average and longer in many cases. 
These checks are performed by the Departments of Homeland Security and 
State, in conjunction with the CIA, FBI, and other law enforcement and 
intelligence agencies.
    Nevertheless, I would like to know whether any additional steps 
should be taken to ensure refugee screening is conducted efficiently 
and effectively.
    In closing, I must note that notwithstanding the advances made by 
USCIS over the past year, our broken immigration system cannot be fixed 
by agency action alone. We must pass comprehensive immigration reform.
    Although the House Majority has refused to bring such a bill to the 
floor, an overwhelming majority of Americans support comprehensive 
immigration reform.
    The American people sent us here to solve problems. They demand 
action on comprehensive immigration reform and I urge my Majority 
colleagues to list to the American public.
                               __________

    Mr. Gowdy. The gentleman yields back.
    The Chair would now recognize the gentleman from Iowa, Mr. 
King.
    Mr. King. Thank you, Mr. Chairman.
    And, Director Rodriguez, I thank you for coming back a 
second time within a month's period of time to testify to us 
here today.
    I was listening to your earlier testimony, and I was 
interested in a statement that you made. ``Violent criminals 
can come from just about anywhere'' was a summation of that, 
although there was a little more detail in your statement, as I 
recall.
    And I'm curious; that statement I don't have any doubt is 
true, but is there a higher incidence among those violent 
criminals--let's say, for example, are they more likely male or 
female?
    Mr. Rodriguez. Again, I take the cases as they come. I 
don't screen based on whether people are men or women or where 
they come from, because the point is just about everybody can 
be a bad guy.
    Mr. King. You've been in law enforcement for 25 years, and 
you don't have a judgment on whether they're more likely male 
or female?
    Mr. Rodriguez. I have seen male violent criminals, female 
violent criminals. That's the point I was trying to make. They 
can be just about anybody.
    Mr. King. We recognize that, and I recognized that in my 
first sentence to you, I believe. But could we establish here 
that there are more male than female that are committing 
violent crimes?
    Mr. Rodriguez. I speak to my job as a law enforcement 
officer. When people commit violent crimes or have histories 
that disqualify them from particular benefit, we do our jobs.
    Mr. King. Can we recognize that the population of our male 
prisons are substantially greater than the populations of our 
female prisons?
    Mr. Rodriguez. Sure.
    Mr. King. Would that be an indicator, then, that----
    Mr. Rodriguez. As far as I know, that is correct.
    Mr. King. We know that's correct.
    Mr. Rodriguez. Yeah.
    Mr. King. And so wouldn't that be an indicator that males 
commit more crime and likely more violent crime and more 
homicides than females?
    Mr. Rodriguez. Sure.
    Mr. King. Okay. So it took us a little while to get to 
that, and I'm thinking it's going to be a little harder to 
narrow this down a little more.
    Is it against the law to profile?
    Mr. Rodriguez. It is, certainly, based on race. For 
example, based on national origin, it is against the law to 
profile.
    Mr. King. Against the law. Could you cite the laws that 
prohibit law enforcement from profiling?
    Mr. Rodriguez. I couldn't specifically cite it. It's based 
on caselaw. It's based on constitutional caselaw.
    Mr. King. Not on statute?
    Mr. Rodriguez. That I'm aware of, there's certainly not a 
Federal statute that prohibits----
    Mr. King. So, as law enforcement officers, are you 
prohibited from looking for a person based upon a profile?
    Mr. Rodriguez. You can--for example, if you have somebody 
who is suspected of a crime and there are identifiers--I think 
this is part of where you're trying to go--identifiers based on 
their race, their national origin, some other identifying 
characteristic about that individual, of course you're allowed 
to know that in order to be able to catch that individual.
    Mr. King. And it could be multiple identifying 
characteristics.
    Mr. Rodriguez. Sure.
    Mr. King. It could be height, it could be skin color, it 
could be sex, it could be clothing, it could be a vehicle they 
drive, it could be patterns that they have?
    Mr. Rodriguez. Patterns of behavior.
    Mr. King. Patterns of behavior.
    Mr. Rodriguez. The bar they go to, I guess, is sort of the 
example you might be going to. Sure.
    Mr. King. And then if we happen to see that criminals are 
coming out of that--I just described a profile, by the way. If 
they happen to see that criminals are coming out of that 
profile, are you prohibited, then, to give greater scrutiny, by 
law, to that profile that is consistently coming back to us as 
the most likely profile of a violent criminal?
    Mr. Rodriguez. Again, I think as a matter of criminal 
investigation--and I think, also, this principle applies to 
antiterrorist investigations--you go where the activity is. So 
I don't think that's based on what race the person comes from, 
what national origin a particular group comes from. You go 
where the activity is.
    Mr. King. Okay. But we would also know that if we--and I'm 
not going to speak to this specifically, but when we walk 
through prisons, we get a pretty good idea of the makeup of the 
prisoners there. And you can't walk out of there and not have 
some ideas about where you're likely to find crime on the 
streets in America. Would you agree with that?
    Mr. Rodriguez. I think that's a fairly complicated topic, 
actually, Congressman King.
    Mr. King. Okay. We got to this place here less than a month 
ago, too, and I wondered if you went back and reviewed a couple 
of Federal sections of Code, 1101 and 1158, that require that 
you consider the race, the religion, the nationality, the 
membership in a particular social group, or political opinion 
as a factor when you do the background checks on individuals 
that are applying for asylum.
    Mr. Rodriguez. Well, those are the bases for either asylum 
or a refugee claim, would be persecution based on membership in 
those categories.
    Mr. King. Okay. But last time you said that you don't 
inquire as to religion. Have you had a chance to reconsider?
    Mr. Rodriguez. And I have to be clear. I misspoke. We 
actually do inquire as to religion as part of the interview. 
That may be relevant to many elements of the claim.
    Mr. King. Thank you. I'm glad we got that clarified, and 
I'm glad you had an opportunity to do that.
    And then do you recognize that there are Muslims who are 
persecuted because of their religion?
    Mr. Rodriguez. Without a doubt, yes.
    Mr. King. And that there are Christians that are persecuted 
because of their religion?
    Mr. Rodriguez. Without a doubt, yes.
    Mr. King. And that there are applications for asylum in 
both of those categories.
    It's curious to me, when I look at the report from 2015, 
from Syria, 1,573 Sunni Muslims admitted under that and 29 
Christians. That would seem to be very disproportionate, to me, 
when I look at the pictures of the film and go over there and 
see the numbers of victims that are displaced and persecuted. 
In a population of Assyrian Christians that was something like 
2 million, now down under 400,000, we could only find 29 out of 
that group, but we found 1,573 Sunni Muslims.
    So I'd ask you to consider the religion in perhaps a 
different light than you might be.
    Mr. Rodriguez. Appreciate that feedback. I will certainly 
let you know that we have, both in Syria and in Iraq, we have 
screened and admitted refugees, not just Muslims but from a 
number of other religious minorities, including Christians.
    As I understand it, Christians represent about 1.3 percent 
of the cases seen by UNHCR. So, you know, part of what the 
proportions that you're talking about reflect is the population 
of who's in Syria. Last I checked, barrel bombs don't 
discriminate.
    Mr. King. Or the U.N.'s regulator.
    And I've run out of time. I thank you, and I yield back.
    Mr. Gowdy. The gentleman from Iowa yields back.
    The Chair will now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you.
    Good to see you, Mr. Director. Thank you for coming and 
joining us and for your service.
    So I won't try to figure out if you discriminate against 
Christians or Muslims, who you are showing some preference for. 
I think that's another hearing here. But I'd like to ask you 
about the new guidance on the 3- and the 10-year bar.
    How far are you along to implementation of that new 
guidance, given that one of the most infamous and onerous 
impediments to legal immigration was changing the law in 1996 
here with the 3- and the 10-year bar? Before that, there was no 
3- and 10-year bar. Where are we along the way on giving 
guidance?
    Mr. Rodriguez. And, Congressman, I share your views about 
the importance of that guidance. There was a clear lack of 
understanding as to the definition of extreme hardship as a 
basis for a waiver from those 3- and 10-year bars. The draft 
guidance that we issued, I guess a couple of months ago now, 
was meant to bring clarity to that purpose.
    We opened it for comment for 45 days. I will tell you that 
we received a number of productive comments that we think we 
will be incorporating into the guidance. That comment period is 
closed now, so we're in the process of incorporating the 
comments that we got.
    Mr. Gutierrez. Yes. How much longer do you predict?
    Mr. Rodriguez. I would venture, again, without being able 
to be exactly specific about it, just a very small handful of 
months before we'll be ready to issue that as final.
    Mr. Gutierrez. Okay.
    And then who exactly is going to receive this guidance? 
What's the name of this officer within your service that's 
going to receive this guidance?
    Mr. Rodriguez. They will be Immigration Services officers.
    Mr. Gutierrez. Immigration Services officers.
    Mr. Rodriguez. We will also, of course, make it public. We 
will take steps to train the staff that will be adjudicating 
those cases so that they understand not just what the guidance 
says but how to use it. And, also, we will----
    Mr. Gutierrez. And how many of these officers exist?
    Mr. Rodriguez. Well, I think, as you know, I have thousands 
of officers----
    Mr. Gutierrez. You have thousands of them.
    Mr. Rodriguez. Yeah. What I can't tell you right now is how 
many of those are eligible receivers for those kinds of cases.
    Mr. Gutierrez. For those kinds of--but we have thousands of 
them that could be eligible.
    But they just don't only determine the 3- and the 10-year 
bar; they determine a wide variety of things.
    Mr. Rodriguez. That is correct. I would guess that we will 
have, you know, sort of, particular groups of officers working 
on these cases.
    Mr. Gutierrez. That's where I was--you must just be able to 
read exactly what I'm thinking.
    Mr. Rodriguez. It's been said, Congressman.
    Mr. Gutierrez. Yeah. You're good.
    I thought, since it's new guidance--they're using the old 
guidance, right? And you're giving them new training. We 
might--and there's thousands of them, and you don't need 
thousands of them to do the 3- and the 10-year bar. You can 
take a group of people. You might want to train a group of 
people.
    Mr. Rodriguez. Yeah, I mean, it's curious----
    Mr. Gutierrez. So do we know who the 3- and the 10-year bar 
guy is that's been trained? Or woman.
    Mr. Rodriguez. Again, I'm not exactly sure who we're going 
to pick as the eligible, sort of, group of receivers for those 
cases. I will observe this. My guess is that the volume of 
those kinds of applications will go up now that there's more 
clarity.
    Mr. Gutierrez. Okay. Now that there's more clarity.
    And just for my friends on the minority and the majority 
side, I think this is important, because this could help us. 
Fifteen, 20 percent of the 11 million undocumented, with no 
action of the Congress of the United States, through the 
sponsorship of an American citizen or permanent resident that 
is eligible to sponsor them, could get their undocumented 
status cleared up. We could start doing the work that America 
sent us here to do. So I think it's a very important job.
    Secondly, because my time is running out--I've got 40 
seconds more. So, historically, people become citizens, there 
is an uptick in citizenship applications when three things 
happen: A, you guys increase the price, so people want to get 
in before there's an increase in price. That's not happening on 
citizenship.
    But there are two other things that historically we've seen 
increase people's participation in becoming citizens. And since 
6 million of the 8 million are Mexican nationals that are 
eligible to become citizens, this is particularly important to 
a group of people that have been called murderers and rapists, 
and it's very particular to them that they could become 
citizens at this particular point.
    So the other two factors are an election and they feel 
under attack. Well, the feeling under attack, I think even the 
majority would probably say, yep, that one, they're under 
attack. And there's an election that they can use to respond to 
that attack. That has been traditionally.
    Are you ready for what I expect to be hundreds of thousands 
of permanent residents who can be--if the past is any 
indication of what you're going to confront in the coming 
months, are you ready for that uptick in citizenship 
applications as we get ready to go into 2016 and those 
permanent residents legally admitted to the United States who 
feel under attack and want to participate get to participate?
    Mr. Rodriguez. I would add to the drivers the fact that 
we're also engaged, because there are 9 million legal permanent 
residents, many of them now for a very long time, in a very 
active process of promoting civic, linguistic, and economic 
integration of legal permanent residents. So we think that, 
too, will drive people. And the answer is, yes, we ready.
    Mr. Gutierrez. So, in addition to the two that I gave that 
will be drivers, there's the third.
    Mr. Rodriguez. We are. And one of----
    Mr. Gutierrez. You guys are out there engaging the 
community civically.
    Mr. Rodriguez. We are. And because of the importance of 
naturalization, in particular, we have made sure to bring those 
processing times in line with target. They are at target.
    Mr. Gutierrez. My time is up, and the Chairman is so good. 
I just want to make sure that everybody knows we're out there 
teaching them English, the Constitution of the United States, 
and getting them ready to be American citizens. And nobody can 
be against that.
    Thank you.
    Mr. Gowdy. The gentleman yields back.
    The Chair will now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Mr. Chairman, thank you.
    And, with your permission, I will give my opening 
statement, and then, if times allows after all the other 
Members have asked their questions, I will----
    Mr. Gowdy. Permission granted.
    Mr. Goodlatte [continuing]. Ask some questions of Director 
Rodriguez.
    So, Director, your appearance before this Subcommittee 
comes at a time when Americans are feeling increased concern 
about the security of our Nation and, in particular, about the 
way U.S. immigration policy is being exploited by those who 
wish to harm this country's citizens.
    Quite frankly, Americans don't believe that their interests 
are being put front and center when it comes to decisions about 
whether or not to issue an immigration benefit to a foreign 
national. And your agency has the responsibility to show a 
commitment to reversing that belief.
    Today, I hope you can convince us that the USCIS is, in 
fact, putting American interests first, but I am dubious, given 
recent events, immigration benefits data, decisions by your 
agency, and even your own written testimony.
    At the beginning of your testimony, you give the slightest 
nod to ``safety and security,'' one small part of a sentence in 
fact, and then launch into an unabashed commitment to your top 
priority of implementing the President's executive actions on 
immigration.
    As you know, I and many Americans believe that such 
executive action is unconstitutional. It's a usurpation of 
Congress' plenary power over immigration law and policy. And 
despite the outcry to that effect, your agency continues to 
approve Deferred Action for Childhood Arrival applications, 
with a denial rate of only 6.5 percent out of nearly 700,000 
approvals.
    But there are many other reasons that my constituents and I 
don't have confidence in the USCIS. For instance, when the 
General Accounting Office finds, as it did in a scathing report 
released last week, that USCIS has very limited fraud training 
for asylum officers, that USCIS doesn't regularly assess fraud 
risks and, thus, doesn't have in place mechanisms to mitigate 
fraud, and that, even when random reviews of asylum cases to 
assess whether the cases are being adjudicated correctly are 
conducted, fraud is not considered.
    The fact that the USCIS approved for a K visa a radicalized 
Islamic extremist, who went on to murder 14 Americans and 
injure many more, does not exactly instill confidence in the 
work that the USCIS is doing.
    The fact that my staff was told that there were no plans to 
review previously approved Special Immigrant Juvenile cases in 
light of suspected rampant fraud brought to light by a news 
organization's superior investigative work does not instill 
confidence in the work that the USCIS does.
    The fact that USCIS issues policy memos determining that 
individuals initially classified as unaccompanied alien minors 
can continue to pursue UAM status despite the fact that they 
subsequently live with their parents doesn't instill 
confidence.
    The fact that, despite valid concerns about the vetting of 
refugees raised by Members of Congress, the American people, 
and even the Federal Bureau of Investigation and intelligence 
officials within the Administration, USCIS simply tells us not 
to worry, the vetting process is good enough, doesn't instill 
confidence.
    The fact that the USCIS keeps abusing what is supposed to 
be its limited discretionary parole authority to create new 
classes of foreign nationals eligible for parole in the United 
States despite Congress' unwillingness to do so doesn't instill 
confidence.
    The fact that there continues to be a seeming rubber-
stamping of ``credible fear'' claims for the record high number 
of individuals surging across the southwest border doesn't 
instill confidence.
    And the fact that sources tell us that USCIS is considering 
making it easier for individuals with DUI convictions to get 
DACA doesn't instill confidence.
    The American people are not impressed with paying lip 
service to security and antifraud measures in written testimony 
to Congress. They deserve action ensuring their safety and 
security.
    I appreciate your appearing before the Subcommittee and 
look forward to asking you some questions to follow up on these 
comments that I have made so that you can assure me, despite 
all that I have outlined and the numerous examples I have yet 
to outline, that the USCIS is putting American interests first.
    I yield back, Mr. Chairman.
    Mr. Gowdy. The gentleman from Virginia yields back.
    The Chair would now recognize the gentleman from Colorado, 
the former fellow prosecutor, Mr. Buck.
    Mr. Buck. Thank you, Mr. Chairman.
    Good afternoon, Mr. Rodriguez.
    Mr. Rodriguez. It's nice to see you, Congressman.
    Mr. Buck. I wanted to ask you, how did Ms. Malik get into 
the country? How did she slip through the procedures that you 
have?
    Mr. Rodriguez. Again, I am constrained, given, one, there's 
an ongoing law enforcement investigation and, two, existing 
policy and law with respect to alien files, I am constrained 
from talking about an individual case.
    Mr. Buck. Okay.
    Mr. Rodriguez. I can certainly describe the process.
    Mr. Buck. You are a former prosecutor.
    Mr. Rodriguez. Yes, sir.
    Mr. Buck. And I was a former prosecutor also. I didn't 
specialize in prosecuting dead people. I'm wondering why you 
can't talk about someone's application after they have been 
killed or after they've died.
    Mr. Rodriguez. Again, without speaking to the specific case 
at hand, without a doubt, there is a law enforcement 
investigation that is ongoing right now.
    Mr. Buck. Well, there are a lot of law enforcement 
investigations going on right now throughout the country. But 
how does information on her application that you would have 
examined or that your agency would have examined implicate a 
Federal investigation?
    Mr. Rodriguez. Our practice is, when there is an ongoing 
law enforcement investigation and when we're talking about an 
alien file, that we don't talk about specific cases in public. 
So those are the constraints that I'm under, Congressman.
    Mr. Buck. Okay.
    What have you learned from the fact that your agency 
allowed someone into this country who ended up participating in 
a mass killing? What changes has your agency made to its 
procedures?
    Mr. Rodriguez. We are in the process right now, at the 
directive of the President and the Secretary, of reviewing both 
cases, the K-1 cases in the last 2 years, and also overall 
looking at our procedures.
    One, a couple of issues that we have identified--remember, 
we're in this process at two different points. We are at the 
petition stage, when a U.S.-based petitioner is filing a 
petition for an applicant who is abroad. At that point, our 
only authority, given to us by this Congress, is to adjudicate 
the bona fides of the application. If there are 
inadmissibilities at that point, we don't have authority at 
that point to do anything about it.
    Mr. Buck. Well, what authority would you like to have?
    Mr. Rodriguez. Well, that's, I think, a discussion that we 
can have going forward.
    Mr. Buck. Can we have it today in 2 minutes and 1 second?
    Mr. Rodriguez. We can give technical assistance to this 
Congress. I'm identifying a particular gap that we've seen.
    Mr. Buck. Could you do anything in terms of developing a 
profile on this particular individual that would help you in 
your determination of whether other individuals should come 
into the country?
    Mr. Rodriguez. I'm sorry, Congressman. I know your time is 
short. I don't think I understood the question.
    Mr. Buck. Sure. Did you do anything--we all understand what 
happened in San Bernardino, and you know who did it. And you 
had information on this individual that you can't share with 
us. Did you look at that information and make any changes to 
your background checks and what information you need and what 
information you'd like before admitting somebody into this 
country?
    Mr. Rodriguez. We are weighing changes now and are also 
looking to see what other changes we may want to make.
    Mr. Buck. What are you weighing?
    Mr. Rodriguez. Right now, I can't speak more specifically 
than that, other than to see if there are enhancements to 
background checks, not just in K-1 but possibly in other areas; 
the points at which we do those background checks. Those are 
among the kind of issues that we are looking at.
    Mr. Buck. Okay.
    Mr. Chairman, based on my inability to get any specific 
information that's helpful, I will yield back.
    Mr. Gowdy. The gentleman yields back.
    And I'm sure the gentleman's frustration is fueled in some 
part not because of this witness, but it's the Director of the 
FBI, himself, who has given us some of this information. For 
instance, I read today that the female terrorist was 
radicalized years before her application. That came from the 
Director of the FBI.
    So I'm not blaming today's witness. I'm sure he's doing 
exactly what he was told to do. But you can't cherry-pick 
certain information and share that with the public and then 
hide behind an ongoing investigation and expect to be taken 
seriously. But that's not a reflection on today's witness.
    With that, the gentleman from Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    And thank you, Mr. Rodriguez, for being here today.
    I want to start with the affirmative asylum process. You 
are no doubt aware of the December 2 GAO report regarding fraud 
in the asylum process, and I'm sure you were just as troubled 
as I was by the ultimate conclusions.
    I notice that there is significant backlog in affirmative 
asylum adjudications that linger way beyond the established 
timetables for adjudications. Can you provide this Committee 
with the exact number of cases currently pending adjudication 
for over 180 days?
    Mr. Rodriguez. I can't provide that specifically, other 
than to acknowledge that that number is significant. I can 
assure this Committee that we are working as fast as we can to 
hire up asylum officers so that we can move those caseloads.
    I also have some things I'd like to say, if the opportunity 
presents itself, about the GAO report.
    Mr. Labrador. Is it your testimony that this is solely due 
to the lack of resources, that the delay is solely due to the 
lack of resources?
    Mr. Rodriguez. We've certainly seen a significant increase 
in the volume of asylum cases, and so it has necessitated an 
increase in resources to process those cases.
    Mr. Labrador. While adjudication times are important to 
keep the process moving, I'm concerned that the GAO found that 
there was no enterprise-wide fraud risk assessment completed by 
the agency.
    I could understand a delay in adjudications if such a fraud 
assessment was underway. Can you explain why USCIS has not 
completed such an assessment?
    Mr. Rodriguez. I would say that we are taking a number of 
steps based on the findings that the GAO made. We are adopting 
most of the recommendations that they have made.
    I would also indicate the fact that there have been a 
number of prosecutions for asylum fraud which resulted from our 
asylum officers identifying those cases as fraud cases.
    So I, to some degree, take issue with certain omissions in 
the GAO report. We are embracing its recommendations. We think 
it will make our work better.
    Mr. Labrador. So do you believe that fraud is a pervasive 
problem in the asylum context?
    Mr. Rodriguez. I believe that it is something that we need 
to do everything we can to prevent. I certainly perceive it as 
a risk.
    Mr. Labrador. So, obviously, when you say ``everything we 
can to prevent it''--but is it a pervasive problem in the 
asylum context?
    Mr. Rodriguez. Again, I view it as a risk. I'm not sure 
that I would agree that it is a ``pervasive problem.'' I view 
it as a risk that we need to safeguard against.
    Mr. Labrador. So how many asylum cases are being granted in 
the United States right now, percentage-wise?
    Mr. Rodriguez. I believe it's roughly 25,000 in recent 
years.
    Mr. Labrador. So what percentage is that of the adjudicated 
cases?
    Mr. Rodriguez. I couldn't tell you specifically what 
percentage it is. We can certainly get you that information.
    Mr. Labrador. Okay.
    Based on USCIS internal investigations and audits, does the 
agency have an estimated percentage of the number of fraudulent 
asylum applications that are affirmatively filed each year?
    Mr. Rodriguez. Again, we know the cases that we found. And 
that's why I point to the cases where our asylum officers 
detected fraud and flagged those cases.
    We can certainly get you a number of cases where we have 
specifically identified the----
    Mr. Labrador. Okay. Can you get us a percentage and----
    Mr. Rodriguez. Yeah, we can give you a briefing on what we 
know about the, sort of ``pervasiveness'' of fraud in our 
cases.
    Mr. Labrador. Are asylum officers given the training and 
resources necessary to detect fraud?
    Mr. Rodriguez. They are. And, in fact, they have. They have 
detected fraud.
    Mr. Labrador. Do you believe that the 35 fraud detection 
and national security officers embedded at asylum offices 
nationwide is sufficient to combat the fraud in the process?
    Mr. Rodriguez. That represents, as I think you know, a 
doubling of the number of fraud detection and national security 
officers assigned to the asylum. I think that has permitted 
them to provide much greater support to the asylum offices. 
We're obviously going to continue evaluating whether that is 
enough, and if we need to increase the number, we'll increase 
the number.
    Mr. Labrador. Do you currently believe it is enough?
    Mr. Rodriguez. I have no reason to believe that it's not 
enough.
    Mr. Labrador. But what other steps is the agency taking to 
address this issue?
    Mr. Rodriguez. The main issues is to continue to train our 
officers and to make sure that they're getting the resources 
they need to combat fraud.
    Mr. Labrador. I yield back my time.
    Mr. Gowdy. The gentleman from Idaho yields back.
    The Chair would now recognize the former U.S. attorney from 
Texas, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman Gowdy.
    Director Rodriguez, I want to follow up on a point raised 
by Chairman Goodlatte in his questioning to you, and it's about 
your stated testimony that your top priority is to implement 
the President's executive action on immigration.
    I know you're a former prosecutor. I am, as well. We both 
took an oath to defend the Constitution. I was one of the first 
folks who questioned the constitutionality of the President's 
actions in that regard. And while that certainly may not matter 
to you, I think what should matter to you is the opinion of a 
Federal judge, followed by the opinion of a Federal circuit 
court of appeals, which ruled that the constitutionality of the 
President's action still remains very much in doubt. And so for 
you to make, you know, what would appear to be a highly 
questionable, likely unconstitutional action of the President 
your highest priority is troubling for me.
    This is especially true when there's very little doubt that 
it was the President's action in that regard, regarding 
executive amnesty, that was the catalyst for the 2014 surge of 
unaccompanied alien children across our southern border. And 
even though the courts have now issued an injunction on the 
President's amnesty, the belief in other countries that you can 
still simply show up here in the United States and be granted 
amnesty and legal status is very much a pervasive belief in 
those countries.
    And, accordingly, we are, as you know, still seeing a 
continued rise in the influx of unaccompanied alien children. 
According to the Department of Health and Human Services, in 
just the past 2 months, the number of unaccompanied minors 
crossing into the United States is 10,000, in just the last 2 
months. That's a spike in activity.
    And I know this is a fact because HHS contacted my office 
to let me know that, as a result of this dramatic increase, 
they're going to have to open additional facilities to handle 
the influx. And two of those facilities are going to be in 
Texas and are going to open on Friday. And one of those 
facilities is going to open on Friday in my district, in Royse 
City, Texas.
    So, to be clear, we certainly didn't advocate for this, and 
we didn't support the policies, which have been the catalyst 
for this crisis, but, nevertheless, we're left with dealing 
with the aftermath of the President's actions in this regard. 
And, as I hope you can appreciate, this is an issue of great 
concern to my constituents.
    So I want to ask you, the inspector general report back in 
2012 found that 25 percent of the Immigration Service officers 
were pressured to, in their opinion, get to ``yes'' in handling 
questionable applications.
    And I know that you were not the Director back in 2012, but 
given that the President's executive amnesty has been put on 
hold by the courts but your stated priority remains 
administering the President's executive actions in that regard, 
what assurance can you give me--I hope that you can--that 
presently staffers aren't being asked to approve questionable 
applications as a way to implement the President's intended 
policies in this regard?
    Mr. Rodriguez. So I'll tell you exactly what I have done. I 
have communicated with my entire workforce through townhalls, I 
have visited USCIS offices throughout the world, and I have 
communicated very directly to my officers that the authority to 
make decisions about cases rests with them and with their 
supervisors, that my role is certainly to set policy, to set 
procedures, but the individual cases are theirs to decide.
    I have a tremendous amount of respect for my workforce. I 
have gotten to know many of them. I would say that all of them 
take their professionalism far too seriously and their oath far 
too seriously to be bullied by anybody into making anything 
other than the decision that they believe is right based on the 
law, based on our policies, based on our procedures.
    I haven't seen the inspector general report that says that 
25 percent, ``feel that way.'' What I have seen is what I have 
seen, being fully engaged with my workforce as its Director, 
and I have not seen evidence of that.
    Mr. Ratcliffe. Mr. Chairman, it appears my time has 
expired, so I will yield back.
    Mr. Gowdy. I thank the gentleman from Texas.
    And the Chair would now recognize the gentleman from 
Virginia, the Chairman of the full Committee, Mr. Goodlatte.
    Mr. Goodlatte. Thank you.
    Director Rodriguez, it's my understanding that there was a 
teleconference last week between the Refugee, Asylum, and 
International Operations Division and the USCIS office 
personnel regarding refugee processing. And, on that call, the 
Deputy Associate Director of RAIO, Jennifer Higgins, told the 
field office personnel that, as refugee pools decrease in 
places from which we have resettled many refugees in recent 
years like Malaysia and Nepal, our real focus is going to be in 
the Middle East, Jordan, Turkey, Iraq, Russia, Kenya.
    Is what Director Higgins said true, that in the next few 
years essentially the bulk of refugees will be coming from 
places like Jordan, Turkey, and Iraq, places where we know 
security is of great concern?
    Mr. Rodriguez. So, Chairman, I am not going to be able to 
comment on internal deliberations, but let me answer the main 
question that you're asking.
    It is, in fact, that there are certain refugee streams that 
we've been seeing in recent years where, basically, they are 
drying up--I don't know that I would necessarily have used that 
phrase, but where the cases are essentially slowing down.
    At the same time, the Syrian example speaks for itself. You 
have 4 million applicants for refugee status in Jordan, 
Lebanon, and Turkey. They are coming from a country that is 
absolutely devastated, more than half of its population 
displaced. The President has been clear in his directive to us 
that we admit at least 10,000 people from Syria in this fiscal 
year, along with an overall target of 85,000. We have been very 
public about that, about those goals.
    So, yes, we are perceiving that in certain places the 
refugee streams are drying up, where, in fact, they're 
increasing from other countries.
    Mr. Goodlatte. And it doesn't concern you that there might 
be security issues in some parts of the world, that it is more 
difficult to vet the refugees?
    Mr. Rodriguez. Oh, of course, it concerns me. And that's 
why a big part of what I have dedicated myself to is to digging 
into our security vetting process, observing our officers in 
action, visiting them on site, which I have already done--I 
traveled to Turkey back in June. I've had engagements with my 
refugee officers, with my asylum officers, as well, to assure 
myself that we are, in fact, deploying what we have described, 
and I now believe correctly, as an intensive, multilayer 
process to ensure that refugees deserve the status----
    Mr. Goodlatte. All right. Well, let me interrupt, because 
I'm going to run out of time, and we have votes on the floor.
    Would it be acceptable for a USCIS asylum officer to grant 
asylum in cases that they suspect fraud?
    Mr. Rodriguez. If we suspect fraud, then we need to chase 
down that issue.
    Mr. Goodlatte. What changes do you plan to make regarding 
asylum processing procedures, given that asylum officers in 
seven out of eight asylum offices the GAO spoke with told the 
GAO``that they have granted asylum in cases in which they 
suspected fraud''?
    Mr. Rodriguez. We are enhancing our training. I am engaging 
with my workforce so that I hear those concerns directly, not 
just through reports. And we will continue to support our 
officers, both in training and also----
    Mr. Goodlatte. Support or admonish them to change their 
practices?
    Mr. Rodriguez. To support them.
    Mr. Goodlatte. And to continue to approve cases where fraud 
is suspected?
    Mr. Rodriguez. If they suspect fraud, then those issues 
should be chased down.
    Mr. Goodlatte. In May of 2013, the USCIS issued a guidance 
memo regarding asylum applications filed by unaccompanied alien 
children. I have heard from several immigration judges that 
this memo is problematic. One of the end results is that an 
individual initially classified by DHS as a UAC can continue to 
benefit from the UAC status despite the fact that they actually 
live with their parents in the United States.
    How does it possibly make sense that an individual is 
classified as a UAC when the Department of Health and Human 
Services officials have released them into the care of a 
parent?
    Mr. Rodriguez. I will need to dig into that issue further, 
Congressman. That memo was issued before I arrived at the 
agency. I will familiarize myself and get----
    Mr. Goodlatte. Does that raise some concerns to you?
    Mr. Rodriguez. Again, I need to know the facts and 
circumstances related to that directive.
    Mr. Goodlatte. I understand that the fraud detection and 
national security officers conduct open-source research on 
refugee applicants as part of security screening. So they check 
to see if there is evidence that an event that the applicant 
claimed has occurred as evidence in support of a refugee claim 
actually did occur.
    But isn't it true that, with open-source checking, an 
applicant could simply describe an event that he or she has 
heard about or has knowledge of and that it really doesn't 
prove the individual was present at the event?
    Mr. Rodriguez. I am fairly confident that my fraud 
detection/national security officers are looking at a whole lot 
more than open-source information when they're checking claims 
by our applicants.
    Mr. Goodlatte. Well, I wonder if you could give us a 
comprehensive description of what it does mean to use open 
source, number one; and, number two, what, in addition, is done 
when open source, in some instances, seems to be the only thing 
they cite as the basis for approval of the claim.
    Mr. Rodriguez. I mean, again, depending on the facts and 
circumstances, I could see where the open source does not raise 
the concerns that you're talking about. I also know, however, 
that our officers look to classified, confidential, secret 
sources, as well, as part of our vetting, as part of their 
evaluation of claims made by applicants, be it for refugee 
status or whatever other benefit lines we're talking about.
    Mr. Goodlatte. Thank you.
    And, Mr. Director, if I might ask, when do you think you 
could provide those answers to the Committee?
    Mr. Rodriguez. Within 2 weeks of today.
    Mr. Goodlatte. All right. That would be very good.
    Thank you, Mr. Chairman. My time has expired.
    Mr. Gowdy. Yes, sir. The gentleman yields back.
    Director, they have called votes. There are 6 minutes left 
in the vote.
    I'm happy to try to get the gentlelady from Texas in. I 
don't want to jeopardize anybody missing votes. Do you want to 
go vote?
    I hate to do it to you.
    Mr. Rodriguez. I don't mind a water break.
    Mr. Gowdy. Okay.
    There are two votes, so we'll cast both procedural votes. 
And then we'll come back immediately and recognize the 
gentlelady from Texas. Thank you.
    We'll be in recess.
    [Recess.]
    Ms. Jackson Lee. I want to thank the Chairman and Ranking 
Member for yielding.
    I want to raise a question about the U visa and those who 
work with immigrant crime victims. And I have had legislation 
on that issue regarding benefits that immigrant victims, crime 
victims, can get.
    But they were asking you to implement a parole program for 
those on the U visa waiting list. And can you tell us what is 
delaying implementing this program that is so vital to 
immigrant crime victims so that they can participate in the 
criminal justice system and render justice?
    And what comes to mind, of course, first, is the domestic 
violence, the issue of being taken advantage of, robbed, 
assaulted, raped, based upon their vulnerability and their 
inability to testify.
    And can I give you a series of questions? So it's the U 
visa and how long it's been taking to implement it. I'd be very 
interested in that.
    We had the Director from Department of Justice from the 
EOIR, dealing with immigration courts, but I also know that you 
work, with your responsibilities, to deal with asylum seekers 
coming into the United States. And I just wanted a sort of 
forceful, if you can give it, confidence of the vetting process 
that you have for those refugees.
    Some landed in Houston on Monday, and I hope that the 
response in Houston was a celebratory one. Because of the 
recent discussions--they happen to be from Syria--all the news 
cameras and stations were going to film or record their coming 
into the State.
    I might say that we have been taking refugees in the State 
of Texas for a very long time, and I'm delighted that the State 
of Texas abandoned what was an illegal action to attempt to 
stop the refugees from coming in. But I'd be happy for a--as 
forceful and vigorous as you can.
    My last question, which is one that I may want to probe a 
little bit more, but I really want to track the fiance visa. 
And let me be very clear. Over the years, I've seen a number of 
our men and women who have worn the uniform who have brought in 
their fiances from the place in which they have taken up arms. 
And these were wonderful marriages, and this was a wonderful 
tribute to the diversity of people.
    But in the instance of the terrorists and this individual, 
I cannot help but wonder, having discovered publicly that this 
person had been radicalized for 1 or 2 years, as to where we 
were in that visa vetting program. Because it hurts the 
program, and it should not. But she went to very conspicuous 
places. She was an educated woman, which is unusual--when I say 
``unusual,'' in terms of how far education is allowed to go in 
some communities.
    So if you can at least give me some framework. And, as I 
understand it, her point of departure was Saudi Arabia. And so 
I am very disturbed that she even got into the United States 
and received a fiance visa. And maybe I should ask the 
question, and I can receive it in whatever form, but how long 
that process took.
    So if you could just start quickly with the U visa and then 
the asylum question, refugee question, and then this K-1 visa, 
I'd appreciate it very much.
    Mr. Rodriguez. So, as to the U visa program, I know we've 
been working on--the parole program, we've been working on 
developing that policy. I know that there is eagerness and 
urgency, and we will continue to work expeditiously. And I 
appreciate your urging us to get it done.
    Ms. Jackson Lee. And you keep me updated, please, the 
Committee.
    Mr. Rodriguez. Yes, ma'am.
    Ms. Jackson Lee. Thank you.
    Mr. Rodriguez. As to refugee screening, I would point out 
that we have admitted 785,000 refugees since September 11 and 3 
million since the beginning of the modern refugee program, let 
alone how many we admitted prior to the modern program. Not 
quite 20 of those 785,000 have been arrested on charges related 
in some way to terrorism.
    So it shows, historically, how that process has, on the 
whole, admitted people who came here to be law-abiding, 
hardworking citizens, raising families, just like all of us 
here.
    Notwithstanding that, we have continued to tighten up the 
vetting. It is an intense, redundant, multilayered process that 
involves three interviews--one by UNHCR, one by the State 
Department contractor, one by my officers, who are trained in 
depth on country conditions--not to mention extensive 
background checks that are done tapping from intelligence 
community resources, law enforcement community resources.
    And the key point of evidence here is, in fact, individuals 
have been denied, individual's cases have been put on hold, 
either because of derogatory information that was found as a 
result of those background checks or because of things that 
were discovered during the interview process.
    Finally, as to the fiance----
    Ms. Jackson Lee. Mr. Rodriguez, before you go to the last 
one, in my review of the process, there are at least 21 steps. 
Some of those probably are yours; some of them are the State 
Department. But what you are suggesting is it is a layered 
review.
    And just as a testimony which Members don't give, I have in 
my State Texas Impact, Catholic Charities, and Interfaith 
Ministries, of which I used to be the chairman of the board. 
All have been engaged in refugee resettlement over the years, 
and I have to strain myself to find an incident out of the 
refugee resettlement program. You have an ally in me. But I 
think it is important for the American people to know how 
stringent the vetting process is.
    Mr. Rodriguez. No, I appreciate that observation, 
Congresswoman. I think it is important that the American people 
understand how intensive a process it truly is, in particular, 
when people are coming from war-torn environments, terrorism-
plagued environments like Syria.
    Ms. Jackson Lee. Thank you.
    Mr. Rodriguez. Finally, as to the fiance visa program, I 
appreciate your observation that most of the relationships that 
are a part of that program are legitimate relationships between 
people who love each other and are trying to start a life 
together.
    In fact, one of the things that I focused on in most of 
today's hearing is on the fact that our security posture really 
needs to be for all visa categories. We're examining the fiance 
visa program. We are looking for different points where we can 
make improvements in that process. We're looking 
retrospectively at those cases and identifying whether there 
are gaps that we need to address.
    Ms. Jackson Lee. May I just pursue a line of questioning?
    When you say reviewing it, I mean, what would you look at? 
I mean, if you want to look at the present circumstance 
objectively, without going into the details, you have a person 
that seems to have traveled to--or came from very challenging 
areas. And she wasn't marrying a former military or a military 
person. And it seems that there needed to be more assessment, 
longer period of time, than what we did.
    Mr. Rodriguez. Those are exactly the issues that we're 
delving into. Right now, I can't speak to the specific case. 
I'm constrained from doing that. But those are the issues we're 
digging into right now.
    Ms. Jackson Lee. Let me finish, if the Chairman would 
indulge me just for a moment----
    Mr. Gowdy. Well, I've indulged you for 3 1/2 minutes over 
the allotted time.
    Ms. Jackson Lee. You're very kind, Mr. Chairman.
    Mr. Gowdy. Can you assure me this will be your final 
question?
    Ms. Jackson Lee. Yes, I will do so.
    Mr. Gowdy. Okay.
    Ms. Jackson Lee. Thank you so very much, Mr. Chairman.
    The Ranking Member and myself went down to the border, a 
summer or two ago, dealing with Central American families that 
we still maintain were fleeing horrific conditions, 
persecution. And they are in the asylum process, which is 
seemingly delayed, and they are now in detention in a lot of 
numbers.
    We've made some progress. But what are you doing with those 
families that have basically been documented that they are 
fleeing murder, pillage, drugs, heinous acts, and they're in 
detention as opposed to moving through the asylum process?
    Mr. Rodriguez. Yeah, actually, you know, what we have been 
doing is moving with the ``credible fear'' and ``reasonable 
fear'' screenings as quickly as we can. Our processing times 
for those are now below 9 days--I think we're down to around 6 
or 7 days right now--to conduct those screening processes.
    Again, if there is a positive finding, then, you know, they 
move forward into the NTA process with the immigration courts. 
If there's a negative finding, they go home; they're removed.
    So we are moving expeditiously in that process.
    Ms. Jackson Lee. Thank you.
    Mr. Rodriguez. Thank you.
    Ms. Jackson Lee. Mr. Chairman, I have two items to put into 
the record, if I might: a letter dated May 7, 2015, to Mr. Leon 
Rodriguez from a number of organizations, dealing with the 
question of the U visa and the numbers of women who experience 
domestic violence, sexual assault, dating violence, who need to 
come under the U visa, and for it to be moved quickly.
    I ask unanimous consent for the letter to be put into the 
record.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. I have an op-ed indicating ``Gilman: 
Asylum-seeking families need help, not detention,'' dated 
December 1, 2015. I would like to ask for it to be placed into 
the record.
    The Gowdy. Without objection.
    [The information referred to follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   
                               __________
                               
    Ms. Jackson Lee. Thank you.
    Mr. Gowdy. The gentlelady yields back.
    The Chair would now recognize the gentlelady from 
California for any concluding remarks or observations she may 
have.
    Ms. Lofgren. Thank you, Mr. Chairman. Just a couple of 
comments.
    I note that the agency is now posting on the Web site 
waiting times in months. It's kind of like the visa bulletin 
for asylum cases. And it's backlogged in every office, but I 
can't help but notice that Los Angeles is twice as long as any 
other area. So I am hoping that efforts will be made to not 
particularly let L.A. Just completely fall off the cliff. Fifty 
months is--I mean, it's all too long, but that's really 
unacceptable.
    I wanted to comment briefly on the open-source issue and 
also consolidating information on asylum. I remember the first 
asylum case I ever worked on was an Iranian who was in the 
United States when the fundamentalists took over and the Shah 
was deposed, and he was Jewish. And open-source data--I mean, 
they were machine-gunning Jews in Iran, and that was the key 
element to making his case. So the fact that there's open-
source information doesn't mean that it's not helpful.
    But I've always wondered why--and I'd like to, you know, 
suggest that this be done not only--it should be done in the 
immigration courts, as well--why don't we consolidate country 
information and update it, you know, every day?
    I mean, you can read in the paper that last month gangs 
murdered all the bus drivers in San Salvador and left their 
bodies in the buses. You know, there's more information--I 
mean, there are things that are material that should be 
available and shouldn't have to be made part of the record in 
each and every case. Their background data and the assurance of 
the facts ought to be made available. And then applicants can 
add to it if they wish, but just the background data ought to 
be provided.
    I wanted to mention also that discrepancies in an asylum 
case does not equal fraud. If you have a woman--as Sheila and 
I, when we went down to visit asylum applicants in Dilley and 
Karnes, and we met a lot of women, many of whom had been raped 
and abused. And, honestly, if you put, ``I was raped on X 
date'' on one document and a different date on another 
document, it doesn't mean you're making it up. I mean, you need 
further inquiry, obviously, but the fact that there are 
discrepancies when people are fleeing chaos and violence does 
not, per se, indicate fraud. And I think it's important to note 
that for the record.
    I also was concerned by your comment that it's completely 
hands-off with officers making determinations. And I think it 
should be hands-off in terms of political interference, but 
officers can make mistakes, and there needs to be some way to 
correct it. Not that they're bad people, but I remember getting 
requests for evidence on whether a particular petitioning 
company existed, and it was Microsoft. And, you know, that 
doesn't mean that the application should be approved because 
there's a whole--but I could tell them that Microsoft did exist 
as a company.
    We had to request for evidence on whether the job 
description of a former Prime Minister of a European ally of 
the United States was legit. I mean, these are things that were 
just boneheaded mistakes, and there's got to be some capacity 
to fix that, not just say, well, we can't interfere.
    And I'm hoping that it's a management issue, more than 
anything else, to make sure that mistakes are made--every 
congressional office gets complaints, and each one of us has to 
respond and send them to you for correction. And there should 
be some way to deal with that in a systematic way that makes 
sure, obviously, there's not political interference but that 
errors are caught and corrected if that is the case. Because 
usually people contact us when they've run out--they don't know 
what else to do but call their Congressman.
    And, finally, just a comment on the Syrian refugees and the 
amount of information available to them. I think comparing the 
Syrian refugees to the Iraqi refugees may be a mistake, because 
the fact is we know more about the Iraqi refugees than any 
other refugees ever, because most of them were our translators 
and they're people that we know firsthand, we have extensive 
contacts with them. I think the real comparison is a Congolese 
refugee or somebody who fled complete chaos where we don't have 
anybody on the field.
    And so the challenge is, how do you find out the truth when 
you don't have--because the situation is so hazardous, you 
can't have American officials in the field. And the truth is 
you do that by creating crowd-sourcing, in a sense, I mean, by 
recreating an entire history of an area and then seeing if what 
the person is saying is true or not true. And we're going to 
make mistakes, but we're not going to be reckless in that 
decisionmaking either.
    So I want to thank the Chairman for giving me the 
additional time so we'll be even. I would just finally note 
that if you read the Fifth Circuit decision on the 
administrative actions taken by the Secretary of Homeland 
Security, it was really focused on the Administrative Procedure 
Act and whether the Administrative Procedure Act applied in 
these discretionary actions. It wasn't really a finding of 
unconstitutionality. I just thought it was worth pointing that 
out for the record.
    And, with that, I would yield back, Mr. Chairman.
    Mr. Gowdy. The gentlelady yields back.
    Director, I want to thank you for your patience. I want to 
make a couple of observations, and then I want to end it by 
allowing you to answer an open-ended question.
    The first observation I want to make is for folks that are 
following this issue. And I would argue, and I know you would 
agree, a lot of folks are following this issue nationwide 
because of what happened in California and, frankly, because of 
some comments made by other Administration officials with 
respect to the refugee program. There's a justified, legitimate 
sense of angst.
    And I'm glad to hear that you did not confine your remarks 
today to just the K visa process, that you understand that 
there's both a prospective and retrospective need to evaluate 
all the visa processes. So I want to thank you for that.
    I want to say this delicately but as firmly as I can. I 
realize that we learn a lot post-tragedy. It'd be great if we 
could learn some of these lessons pre-tragedy. We just have a 
tendency to want to focus--I've read more articles today in the 
last couple of days about the K visa program than I have 
probably read in the last 10 years. It'd be great if it did not 
take something like what happened in California for all us, 
frankly, to redouble our efforts to make sure--the first 
objective should be to prevent it from happening, not to figure 
out what happened afterwards.
    I have no reason to quarrel with the statistics, the crime 
statistics, that one of my colleagues shared with you. I don't 
know whether they're accurate or not, but I have no reason to 
quarrel with them, other than to say this: The margin for error 
is very, very, very small. In fact, it's nonexistent. And we 
can get it right a lot of the time. We can get it right the 
overwhelming majority of the time. But there's still risk. And, 
at some point, as a country, we're going to have to weigh and 
balance the risk with what we perceive to be the reward of the 
program.
    What I want to do at the end is, I'm not going to ask you 
questions that I know you cannot answer, but I do want to put 
the questions on the record. So I don't expect you to answer 
them, I realize that you cannot answer them, but I want people 
to have a sense of what I think Congresswoman Lofgren and I 
would both like to ask. She's willing to wait until the Bureau 
concludes its investigation. I'm a little, maybe, more 
skeptical of whether or not it can't be done now.
    But, regardless, I would like to know if the female 
terrorist did travel to the United States in July of 2014 on an 
approved K visa. The media reports are that she did. If the 
Director of the FBI can say certain things, I would think that 
that could be either confirmed or not confirmed.
    At which embassy or consular post was the visa issued?
    Are the reports correct that one or more of the addresses 
she listed on her visa application were wrong? And it can be 
mistakenly wrong or it can be fraudulently wrong, and it's 
important which it was, if either.
    Did she undergo an in-person interview with a consular 
officer? And if so, how long did that in-person interview last?
    When did she first apply for the K visa?
    What does the investigation consist of before you get to 
the in-person consular interview? Were her neighbors 
interviewed in the country of origin? Her work history, school, 
employers?
    You know, it strikes me, Director, that this country is 
conferring a privilege on people to allow them to immigrate 
here. Therefore, we should be able to ask to see whatever 
information we think would be relevant to that inquiry, whether 
it is cell phone records, if that's applicable in a country, or 
whether it is interviewing neighbors.
    I want to make this one observation. I'm not going to 
pressure you. You say you can't answer the questions. I get 
that. I respect the fact that prosecutors and law enforcement 
officers oftentimes cannot comment on whether or not an 
investigation is even ongoing.
    I would tell you that people like consistency because it 
breeds confidence. And our President has, on at least two 
different occasions, commented during an ongoing investigation. 
And I try not to criticize him gratuitously, but when you 
comment on an ongoing investigation, as he has done twice, on 
the merits, the facts, and then you ask Administration 
officials who come before Congress and, in my judgment, 
correctly note that they could not comment on an ongoing 
investigation, it breeds a lack of confidence.
    I don't think the lack of confidence is with you. I just 
think the President would do well to take the same advice that 
you have received, which is, if you don't know what you're 
talking about, it's better to say nothing.
    With that, we're all going to go back to our districts at 
some point, hopefully in the next week or so, and I think we're 
likely to be asked, are we safer than we were a month ago, are 
we safer than we were 6 months ago, with respect to what we've 
learned about the visa.
    I want to let you close us out by giving an assurance, if 
you're able to, that we've already taken steps to at least make 
us safer than we were the day before the incident happened in 
California.
    Mr. Rodriguez. Thank you, Chairman, for that invitation.
    Again, without being able to go right now into the specific 
details, there are affirmative steps that we are preparing to 
take now that will certainly enhance our visibility into the 
backgrounds of at least certain categories of individuals who 
seek admission to the United States. I think as we complete our 
process of review, we will be able to talk in greater detail as 
to what that means.
    Mr. Gowdy. When and if you learn that it is appropriate for 
the Ranking Member and I or anyone else who's interested to 
review that file, we would like to do so. I don't want to 
interfere with an investigation, but I also don't want that to 
be cited as a reason if it's not legitimate. So if it's brought 
to your attention that it's okay, Ms. Lofgren and I will be 
happy to come to wherever the file may be.
    Mr. Rodriguez. Understood, Chairman. Thank you.
    Mr. Gowdy. With that, we want to thank you again, 
particularly for accommodating our vote schedules and for 
answering all the Members' questions and the collegiality with 
which you always interact with the Committee.
    With that, we are adjourned.
    [Whereupon, at 3:36 p.m., the Subcommittee was adjourned.]

                                 [all]
</pre></body></html>
